TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Attestation Review of the Internal Revenue
                      Service’s Fiscal Year 2006 Annual
                      Accounting of Drug Control Funds



                                         February 1, 2007

                              Reference Number: 2007-10-046




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                February 1, 2007


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Attestation Review of the Internal Revenue
                               Service’s Fiscal Year 2006 Annual Accounting of Drug Control Funds
                               (Audit # 200710032)

 This report presents the results of our attestation review of the Internal Revenue Service’s (IRS)
 Fiscal Year (FY) 2006 Office of National Drug Control Policy (ONDCP)1 detailed accounting
 submission. The purpose of this review was to express a conclusion about the reliability of each
 assertion made in the detailed accounting submission.

 Impact on the Taxpayer
 The IRS reported that it expended $55.484 million on ONDCP-related activities in FY 2006.
 Reliable financial information is critical to the IRS’ ability to accurately report on the results of
 its operations to both internal and external stakeholders, including taxpayers.

 Synopsis
 We determined that the IRS’ FY 2006 ONDCP detailed accounting submission and assertions,
 submitted to us on January 11, 2007, did not include all required material information or a
 reasonably detailed explanation regarding the methodology used to calculate funds expended.
 Specifically, ONDCP reporting guidelines require that all funds expended on ONDCP-related
 activities during a fiscal year be clearly reported. However, the IRS simply re-reported the
 funding of $55.028 million it had received for the ONDCP in FY 2006 and noted that funds
 actually expended were not materially different. ONDCP guidelines also require that the


 1
  The ONDCP was established in 1988 to set priorities, implement a national strategy, and certify Federal
 Government drug control budgets. Pub. L. No. 105-277 (Division C-Title VII), Section 707(d) (1988).
                                 Attestation Review of the Internal
                             Revenue Service’s Fiscal Year 2006 Annual
                                 Accounting of Drug Control Funds


methodology used to calculate funds expended be fully explained. However, the IRS noted only
that ONDCP funds expended were calculated based on direct investigative time without any
detailed explanation regarding the methodology used to accomplish this calculation.
In fact, the only methodology clearly outlined by the Criminal Investigation (CI) function during
our inquiries was the unit cost approach associated with the funding transfer, after rescission, of
$55.028 million. As part of our fieldwork, we did inquire as to whether funds expended during
FY 2006 were considered in preparing the ONDCP report and were informed by the CI function
at the time that this was not done.
On January 25, 2007, we provided a discussion draft audit report notifying the IRS that its
ONDCP detailed accounting submission was materially incomplete. We also informed the IRS
that the unit cost methodology was inadequate for the purpose of calculating funds expended in
FY 2006, in the event it relied on this approach in any way.
In response to this report, the IRS indicated it had calculated funds expended on the ONDCP
program in FY 2006 to be $55.484 million. In addition, the IRS indicated that this calculation
was based on the application of direct investigative time attributable to the ONDCP program to
CI function funds expended in FY 2006. The IRS’ response also noted that this calculation
included a number of adjustments it had made to reflect costs specifically attributable to the
ONDCP.
In general, we found the overall cost allocation methodology described in the IRS’ response to
our discussion draft report to be adequately explained and documented, with the exception of one
matter. Specifically, the IRS adjusted its allocation-based estimate of ONDCP funds expended
upwards by $2 million primarily to reflect salary and benefits related to program management
and analytical support staff costs it directly attributed to the program. However, the IRS did not
provide an explanation as to why these types of costs were so unique that that they would not
also be incurred by other CI function programs and therefore already be reflected in the overall
allocated cost calculation.
Based on our review, if the IRS’ FY 2006 ONDCP report were adjusted to reflect the additional
information and cost calculation methodology included in the IRS response to our discussion
draft report, nothing came to our attention, with the exception of the matter discussed in the
preceding paragraph, to indicate that the assertions are not presented in all material respects in
accordance with ONDCP-established criteria.

Recommendation
We recommended the Chief Financial Officer ensure future ONDCP reports use an analysis of
current period financial activity in determining the funds expended.




                                                                                                     2
                                Attestation Review of the Internal
                            Revenue Service’s Fiscal Year 2006 Annual
                                Accounting of Drug Control Funds



Response
The IRS agreed with our recommendation and, as discussed above, included in its response a
description of the method used to calculate the FY 2006 drug resources based on current period
funds expended. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Nancy Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                 3
                                           Attestation Review of the Internal
                                       Revenue Service’s Fiscal Year 2006 Annual
                                           Accounting of Drug Control Funds




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
The Methodology Used to Calculate the Internal Revenue Service’s
Fiscal Year 2006 Annual Drug Control Funds Expended Was Generally
Well Documented .....................................................................................................Page 2
                    Recommendation 1:........................................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 5
          Appendix II – Major Contributors to This Report ........................................Page 6
          Appendix III – Report Distribution List .......................................................Page 7
          Appendix IV – Internal Revenue Service Fiscal Year 2006 Detailed
          Accounting Submission of Drug Control Funds...........................................Page 8
          Appendix V – Management’s Response to the Draft Report .......................Page 11
            Attestation Review of the Internal
        Revenue Service’s Fiscal Year 2006 Annual
            Accounting of Drug Control Funds




               Abbreviations

CI      Criminal Investigation
FTE     Full-Time Equivalent
FY      Fiscal Year
IRS     Internal Revenue Service
ONDCP   Office of National Drug Control Policy
                                     Attestation Review of the Internal
                                 Revenue Service’s Fiscal Year 2006 Annual
                                     Accounting of Drug Control Funds




                                           Background

The Anti-Drug Abuse Act of 19881 establishes as a policy
goal the creation of a drug-free America. A key                         National Drug Control Program
provision of the Act is the establishment of the Office of             agencies are required to submit
National Drug Control Policy (ONDCP) to set priorities,                  to the Director of the ONDCP,
implement a national strategy, and certify Federal                     not later than February 1 of each
                                                                       year, a detailed accounting of all
Government drug control budgets. The Internal Revenue                           funds expended.
Service’s (IRS) Narcotics Program supports the National
Drug Control Strategy through continued support of the
Organized Crime and Drug Enforcement Task Force.
This review was conducted as required by the National Drug Enforcement Policy (21 U.S.C.
Section 1704(d)) and the ONDCP Circular entitled Annual Accounting of Drug Control Funds,
dated April 18, 2003. The National Drug Control Program agencies2 are required to submit to
the Director of the ONDCP, not later than February 1 of each year, a detailed accounting of all
funds expended (the ONDCP Circular requires amounts obligated) during the previous fiscal
year. Further, it requires such accounting to be authenticated by the Inspector General of each
agency prior to its submission.
The Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of
Columbia, and Independent Agencies Appropriations Act, 2006,3 was enacted on
November 30, 2005. Within this law is a specific appropriation of $55.584 million to fund the
IRS Criminal Investigation (CI) function drug enforcement actions.
This review was performed in the IRS Headquarters offices of the Chief Financial Officer and
Chief, CI, in Washington, D.C., during the period December 2006 through January 2007. Our
review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants. An attestation review is substantially less in scope
than an examination, the objective of which is the expression of an opinion on the ONDCP
detailed accounting submission assertions. Accordingly, we do not express such an opinion.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.



1
  Pub. L. No. 105-277 (Division C-Title VII), Section 707(d) (1988).
2
  National Drug Control Program Agencies are defined as any agency that is responsible for implementing any
aspect of the National Drug Control Strategy.
3
  Pub. L. No. 109-115 (2005).
                                                                                                         Page 1
                                     Attestation Review of the Internal
                                 Revenue Service’s Fiscal Year 2006 Annual
                                     Accounting of Drug Control Funds




                                     Results of Review

The Methodology Used to Calculate the Internal Revenue Service’s
Fiscal Year 2006 Annual Drug Control Funds Expended Was Generally
Well Documented
We reviewed the IRS ONDCP detailed accounting submission and assertions for Fiscal
Year (FY) 2006, which ended September 30, 2006 (see Appendix IV). This submission,
including the assertions made, was prepared pursuant to 21 U.S.C. § 1704(d) and the ONDCP
Circular Annual Accounting of Drug Control Funds, and is the responsibility of the IRS. The
assertions, as required by Section 5.b. of the ONDCP Circular, include statements that the
methodology used is reasonable and accurate, including explanations and documentation of
estimation assumptions used; the methodology disclosed was the actual methodology used; and
the data presented are associated with obligations against a financial plan that reflects changes, if
made. The ONDCP Circular also requires that such accounting be authenticated by the Inspector
General of each agency prior to its submission.
In FY 2006, ONDCP funding became a permanent part of the IRS’ budget. In prior years,
IRS-related ONDCP funds expended were reimbursed by the Department of Justice. The IRS
noted in its FY 2006 ONDCP report that, in conjunction with this change in funding structure,
the Department of Justice transferred 329 Full-Time Equivalents (FTE)4 and associated funding
of $55.584 million to the IRS in FY 2006. This amount was reduced by a subsequent 1 percent
Department of the Treasury budget rescission to $55.028 million and 326 FTEs. The IRS also
noted in its FY 2006 ONDCP report that the resources associated with this transfer were
calculated by multiplying the FTEs transferred by a unit cost rate.
Overall, we found the IRS’ FY 2006 ONDCP Report, which was submitted to us on
January 11, 2007, did not include all required material information or a reasonably detailed
explanation regarding the methodology used to calculate funds expended. Specifically, ONDCP
reporting guidelines require that all funds expended on ONDCP-related activities during a fiscal
year be clearly reported. However, the IRS simply re-reported the funding of $55.028 million it
had received for the ONDCP in FY 2006 and noted that funds actually expended were not
materially different. ONDCP guidelines also require that the methodology used to calculate
funds expended be fully explained. However, the IRS noted only that ONDCP funds expended
were calculated based on direct investigative time without any detailed explanation regarding the
methodology used to accomplish this calculation.

4
 A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2006, 1 FTE was equal to 2,080 staff hours.
                                                                                                         Page 2
                                 Attestation Review of the Internal
                             Revenue Service’s Fiscal Year 2006 Annual
                                 Accounting of Drug Control Funds



In fact, the only methodology clearly outlined by the CI function during our inquiries was the
unit cost approach associated with the funding transfer, after rescission, of $55.028 million. As
part of our fieldwork, we did inquire as to whether funds expended during FY 2006 were
considered in preparing the ONDCP report and were informed by the CI function at the time that
this was not done.
On January 25, 2007, we provided a discussion draft audit report notifying the IRS that the
January 11, 2007, FY 2006 ONDCP Report was materially incomplete. We also informed the
IRS that the unit cost methodology was inadequate for the purpose of calculating funds expended
in FY 2006, in the event it relied on this approach in any way.
Specifically, although historical costs were used by the IRS in developing the unit cost rate for
special agents, this rate was subsequently inflated by numerous material, unsupported
adjustments. For example, the unit cost rate calculation for special agent-related indirect costs
such as rent, supplies, and other services was subsequently increased by 75 percent by the IRS
CI function as part of the ONDCP calculation process. The CI function was unable to provide
any detailed analysis or documentation to support any of these adjustments.
In response to the discussion draft report, the IRS indicated it had calculated funds expended on
the ONDCP program in FY 2006 to be $55.484 million. In addition, the IRS indicated that this
calculation was based on the application of direct investigative time attributable to the ONDCP
program to CI function funds expended in FY 2006. The IRS’ response also noted that this
calculation included a number of adjustments it had made to reflect costs specifically attributable
to the ONDCP.
In general, we found the overall cost allocation methodology described in the IRS’ response to
our discussion draft report to be adequately explained and documented, with the exception of one
matter. Specifically, the IRS adjusted its allocation-based estimate of ONDCP funds expended
upwards by $2 million primarily to reflect salary and benefits related to program management
and analytical support staff costs it directly attributed to the program. However, the IRS did not
provide an explanation as to why these types of costs were so unique that that they would not
also be incurred by other CI function programs and therefore already be reflected in the overall
allocated cost calculation.
Based on our review, if the IRS’ FY 2006 ONDCP report were adjusted to reflect the additional
information and cost calculation methodology included in the IRS response to our discussion
draft report, nothing came to our attention, with the exception of the matter discussed in the
preceding paragraph, to indicate that the assertions are not presented in all material respects in
accordance with ONDCP-established criteria.
Recommendation
Recommendation 1: The Chief Financial Officer should ensure future ONDCP reports use
an analysis of current period financial activity in determining the funds expended.

                                                                                             Page 3
                                 Attestation Review of the Internal
                             Revenue Service’s Fiscal Year 2006 Annual
                                 Accounting of Drug Control Funds



       Management’s Response: The IRS agreed with our recommendation and included
       in its response a description of the method used to calculate the FY 2006 drug resources
       based on current period funds expended.
                                            *****
While this report is an unrestricted public document, the information it contains is intended
solely for the use of the IRS, the United States Department of the Treasury, the ONDCP, and
Congress. It is not intended to be, and should not be, used by anyone other than these specified
parties.




                                                                                           Page 4
                                 Attestation Review of the Internal
                             Revenue Service’s Fiscal Year 2006 Annual
                                 Accounting of Drug Control Funds



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to perform an attestation review of the IRS’ reporting of
FY 2006 ONDCP obligations for the purpose of expressing a conclusion on the reliability of the
assertions made in the detailed accounting submission. To accomplish our objective, we:
I.     Obtained an understanding of the process used to prepare the IRS FY 2006 ONDCP
       detailed accounting submission.
       A. Discussed the process to record and report ONDCP expenditures with responsible
          IRS personnel.
       B. Obtained any documents such as the detailed accounting submission, written
          procedures, supporting worksheets, and recording modifications that evidence the
          methodology used.
II.    Evaluated the reasonableness of the drug methodology process.
       A. Reviewed data supporting the detailed accounting submission to establish its
          relationship to the amounts being reported.
       B. Reviewed the estimation methods used for consistency with reported amounts.
III.   Performed sufficient verifications of reported obligations to support our conclusion on
       the reliability of the assertions.
       A. Verified whether the detailed accounting submission includes all of the required
          elements.
       B. Verified the mathematical accuracy of the obligations presented, traced the
          information to the supporting documentation, and reviewed the supporting
          documentation for reasonableness.




                                                                                           Page 5
                              Attestation Review of the Internal
                          Revenue Service’s Fiscal Year 2006 Annual
                              Accounting of Drug Control Funds



                                                                            Appendix II

                Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Mildred Rita Woody, Lead Auditor
Robert Beel, Senior Auditor
Kanika Kals, Auditor
Richard Louden, Auditor




                                                                                    Page 6
                              Attestation Review of the Internal
                          Revenue Service’s Fiscal Year 2006 Annual
                              Accounting of Drug Control Funds



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner - Attention: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation SE:CI
Deputy Chief, Criminal Investigation SE:CI
Deputy Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS:CFO




                                                                        Page 7
                  Attestation Review of the Internal
              Revenue Service’s Fiscal Year 2006 Annual
                  Accounting of Drug Control Funds



                                                     Appendix IV

Internal Revenue Service Fiscal Year 2006 Detailed
   Accounting Submission of Drug Control Funds




                                                           Page 8
    Attestation Review of the Internal
Revenue Service’s Fiscal Year 2006 Annual
    Accounting of Drug Control Funds




                                            Page 9
    Attestation Review of the Internal
Revenue Service’s Fiscal Year 2006 Annual
    Accounting of Drug Control Funds




                                            Page 10
              Attestation Review of the Internal
          Revenue Service’s Fiscal Year 2006 Annual
              Accounting of Drug Control Funds



                                                 Appendix V

Management’s Response to the Draft Report




                                                      Page 11
    Attestation Review of the Internal
Revenue Service’s Fiscal Year 2006 Annual
    Accounting of Drug Control Funds




                                            Page 12
